February 1, 2011

DAVID E. WILLIAMS, JR.
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Management Advisory Report – Follow-Up on the Assessment of Overall
         Plant Efficiency 2010 (Report Number NO-MA-11-001)

This report presents a follow-up on the U.S. Postal Service’s progress in
reducing workhours based on the workhour recommendation made in our prior report1
(Project Number 11XG013NO000). This is a cooperative effort with the Postal Service
and addresses operational risk. The objective of this review was to follow-up on the
Postal Service’s progress in reducing workhours, as of fiscal year (FY) 2010. See
Appendix A for additional information about this review.

Last year, we reported on efficiency levels and mail volume in processing and
distribution centers (P&DCs) and processing and distribution facilities (P&DFs) and
recommended the Postal Service reduce almost 16.2 million workhours by FY 2012.
The goal of the previous effort was to report on the Postal Service’s efforts to “raise the
bar” on productivity levels for those plants that were the least productive in the network
nationwide. This report follows up on the Postal Service’s progress in this effort.

Conclusion

The Postal Service made substantial progress by reducing workhours in the network
from the previous year. Plants that were the least productive in FY 2009 reduced over
13.3 million workhours (achieving 82.78 percent of the recommended workhour
savings) and improved productivity by over 9.3 percent. See Appendix B for more
information.

Significant Workhour Reductions and Service Improvements

The Postal Service made significant reductions in workhours and improvements to
operational efficiency in FY 2010. For instance, from FYs 2009 to 2010, management




1
 Management Advisory Report – Assessment of Overall Plant Efficiency 2010 (Report Number NO-MA-10-001,
dated June 11, 2010).
Follow-Up on the Assessment of Overall Plant Efficiency 2010                               NO-MA-11-001



used over 26 million fewer workhours in mail processing.2 Plants that had
below-median productivity levels in FY 2009 accounted for 13.3 million of this workhour
reduction and achieved 82.78 percent of the recommended workhour savings and
improved productivity by over 9.3 percent. Overall, total mail processing productivity
also improved by more than 7.2 percent over the prior fiscal year.

The Postal Service made these workhour reductions while improving service in the
External First-Class (EXFC) measurement system categories of overnight and 2- and
3-day service. In addition, we found that First Handling Piece (FHP) productivity
increased at a higher rate than non-farm business sector3 productivity as reported by
the Bureau of Labor Statistics in the first three quarters of calendar year 2010. See
Appendix B for our detailed analysis of this topic.

Changing Economic Trends

The Postal Service faces the challenge of making additional workhour reductions while
continuing to deal with declining mail volumes and a deteriorating financial condition.
The Postal Service ended FY 2010 with a net loss of over $8.5 billion. Without the
expenses of the Postal Service Retiree Health Benefits Fund and the increases to
Workers’ Compensation costs, the net loss was $505 million. Mail volume in FY 2010
totaled 170.6 billion pieces, a decline of 3.5 percent, or 6.2 billion pieces, compared to
FY 2009. Declining mail volume was attributed mainly to the continuing sluggish
economy and the lingering effects of the recent recession and electronic diversion of
mail. Total operating revenue decreased from $68 billion in FY 2009 to $67 billion in FY
2010 (a 1.5 percent decrease) while expenses totaled $75.4 billion (a 5 percent
increase). See Appendix B for our detailed analysis of this topic.

We are not making any recommendations in this report. However, we will make
recommendations for additional workhour savings based on FY 2010 workhour usage in
a subsequent report on the assessment of overall plant efficiency. Management agreed
with the report but chose not to comment because there were no recommendations.




2
  These hours are recorded in a category referred to as Function 1. Total Function 1 hours include Network
Distribution Centers (NDCs), International Service Centers (ISCs), Logistics and Distribution Centers (L&DCs),
Priority Hubs, P&DCs, and P&DFs.
3
  The non-farm business sector is a subset of the domestic economy and excludes the economic activities of the
following: general government, private households, nonprofit organizations serving individuals, and farms.



                                                         2
Follow-Up on the Assessment of Overall Plant Efficiency 2010         NO-MA-11-001



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director
Network Processing, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    Frank Neri
    Corporate Audit and Response Management




                                                    3
Follow-Up on the Assessment of Overall Plant Efficiency 2010                                    NO-MA-11-001



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Mail processing is an integrated group of activities4 required to sort and distribute mail
for dispatch and eventual delivery. Post offices, stations, and branches send outgoing
mail to P&DCs and P&DFs for processing and dispatch for a designated service area.
The Postal Service had more than 300 facilities with mail processing responsibilities in
FY 2010.

We divided the facilities that process mail into seven groups ranked by mail volume
outlined in the Breakthrough Productivity Initiative (BPI).5 Chart 1 shows the percentage
of mail processing facilities in each group.

                               Chart 1. PLANT GROUPING BASED ON
                               FY 2006 BPI GROUPINGS (WORKLOAD)




4
  Mail processing activities include culling, edging, stacking, facing, canceling, sorting, tying, pouching, and bundling.
5
  The Postal Service established the BPI to drive costs out of the organization while creating continuous improvement
capability. The BPI uses comparative monitoring and performance ranking in operating units across the country.
Higher performing units are sometimes used as models to identify best practices. Standard procedures are based on
best practices and training is developed to share performance expectations. Targets are set to drive performance
toward the highest levels.




                                                            4
Follow-Up on the Assessment of Overall Plant Efficiency 2010                              NO-MA-11-001




OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to follow-up on the Postal Service’s progress in reducing workhours
based on recommendations made in our prior report. This audit is a cooperative effort
with the Postal Service.

To accomplish our objective, we identified trends in mail volume, workhours, overtime,
and productivity for each of the seven plant groups for FY 2010.

To conduct this review, we relied on computer-processed data maintained by
Postal Service operational systems, which included the Management Operating Data
System and the Enterprise Data Warehouse System. We did not test the validity of
controls over these systems. However, we verified the accuracy of the data by
confirming our analysis and results with Postal Service managers and other data
sources.

We conducted this review from December 2010 through February 2011 in accordance
with the Quality Standards for Inspections.6 We discussed our conclusions with
management on January 25, 2011, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

                                                     Report             Final Report          Monetary
                 Report Title                       Number                  Date               Impact
    Assessment of Overall Plant                   NO-MA-09-002            5/8/2009            $969,495,708
    Efficiency
    Assessment of Overall Plant                   NO-MA-10-001           6/11/2010             743,961,610
    Efficiency 2010


As shown in the preceding table, we have conducted two reviews assessing overall
plant efficiency. These reviews showed that management had not evaluated operational
efficiency by assessing performance against productivity targets and other plants and
adjusting staff and equipment resources in response to workload changes.
Consequently, more workhours than necessary were used to process the mail. These
reviews identified opportunities to improve efficiency and reduce more than
39 million workhours that would produce $1,713,457,318 in savings over 10 years. In
response to our recommendations, management reduced workhours to better align with
budgeted workhours.



6
  The President’s Council on Integrity and Efficiency (PCIE) and the Executive Council on Integrity and Efficiency
(ECIE) last promulgated these standards in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                        5
Follow-Up on the Assessment of Overall Plant Efficiency 2010                        NO-MA-11-001



                              APPENDIX B: DETAILED ANALYSIS

Follow-Up to Prior Audit

In the Assessment of Overall Plant Efficiency 2010 report,7 we recommended workhour
savings of 16,150,495, with an associated economic impact of $743,961,610. We
compared the performance of the plants identified as having below-median productivity
levels in FY 2009 with their performance in FY 2010. We found plants that were
below-median in FY 2009 improved productivity by 9.35 percent. These plants achieved
82.78 percent of our recommended workhour reduction and reduced workhours by
13,369,970 (12.32 percent) as shown by plant group in Table 1.

     TABLE 1. BELOW-MEDIAN PLANTS’ WORKHOUR SAVINGS FYs 2009 TO 2010

                                                                                       Percentage of
Plant        FY 2009         FY 2010           Savings          Recommended            Recommended
Group       Workhours       Workhours          Achieved            Savings                Savings
                                                                                         Achieved
     1       43,887,481     37,972,218        5,915,263             6,605,764               89.55%
     2       20,433,679     18,610,164        1,823,515             2,593,725                70.30
     3       13,927,424     12,184,883        1,742,541             2,176,348                80.07
     4       15,423,286     13,656,078        1,767,208             2,962,436                59.65
     5        7,725,942      6,929,585          796,357             1,127,394                70.64
     6        4,718,013      3,799,418          918,595               445,597               206.15
     7        2,375,766      1,969,275          406,491               239,232               169.91
    Total   108,491,592     95,121,622        13,369,970           16,150,495                82.78%


We also compared the performance of all plants in FY 2009 against performance in
FY 2010. These sites do not include NDCs, ISCs, L&DCs, and Priority Hubs and,
therefore, only represent 80.44 percent of total Function 1 workhours. The plants
reduced workhours by 22,257,954 from FYs 2009 to 2010.

Significant Workhour Reductions and Service Improvements

The Postal Service made significant reductions in workhours and improvements to
operational efficiency. For instance, from FYs 2009 to 2010, management used




7
 Management Advisory Report – Assessment of Overall Plant Efficiency 2010 (Report Number NO-MA-10-001)
dated June 11, 2010.



                                                     6
Follow-Up on the Assessment of Overall Plant Efficiency 2010                                NO-MA-11-001



26.1 million fewer workhours in mail processing.8 Overall mail processing productivity
improved from an average 789 mailpieces per hour in FY 2009 to an
average 849 mailpieces per hour in FY 2010, representing a productivity increase of
over 7.6 percent. Mail processing overtime increased 43.72 percent from FYs 2009 to
2010.

We found that FHP productivity increased at a higher rate than the non-farm business
sector productivity as reported by the Bureau of Labor Statistics in the first 3 quarters of
calendar year 2010 as shown in Table 2.

 TABLE 2. PERCENTAGE PRODUCTIVITY CHANGES BY QUARTER 2009 TO 2010


                                 Percentage Change in                   Percentage Change in
           Calendar                      FHP                          Non-Farm Business Sector
           Quarter                   Productivity                           Productivity
                                      2009 - 2010                            2009 - 2010

               1
      (January - March)                       9.0%                                    6.1%
               2
        (April - June)                        7.8%                                    3.7%
               3
     (July - September)                       7.9%                                    2.5%

The Postal Service made these gains and improved service in EXFC measurement
system categories of overnight, 2-day, and 3-day service as shown in Table 3.

                                 TABLE 3. EXFC SERVICE SCORES

                         Fiscal Year         Overnight          2-Day           3-Day
                            2009               96.19            93.68           90.89
                            2010               96.37            93.74           91.61

Despite continuing economic challenges, the Postal Service continued to deliver high
levels of service according to its residential customers, with 86.8 percent of customers
surveyed rating the Postal Service as “very satisfied or mostly satisfied” in the period
July 1 to September 30, 2010. In addition, the Ponemon Institute9 named the Postal
Service the “Most Trusted Government Agency” for the 6th year in a row. More than


8
  These hours are recorded in a category referred to as Function 1, which includes hours worked in NDCs, ISCs,
L&DCs, Priority Hubs, P&DCs, and P&DFs. There was a total 26.1 million workhour savings in Function 1 hours, 21.7
million of which were attributable to all plants and 12.9 attributable to plants with below-median productivity.
9
  The Ponemon Institute is a research center dedicated to privacy, data protection, and information security policy.



                                                         7
Follow-Up on the Assessment of Overall Plant Efficiency 2010               NO-MA-11-001



87 percent of the 9,000 Americans surveyed in the 2010 Privacy Trust Study of the
United States Government ranked the Postal Service first among 75 agencies. Top
ranking means Americans trust the Postal Service as the government agency best able
to keep their information safe and secure.

Title 39, U.S.C. Part 1, Chapter 1, § 101, states that the Postal Service “. . . shall
provide prompt, reliable, and efficient services to patrons in all areas . . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal Accountability and Enhancement Act, P.L. 109-435, Title II dated
December 20, 2006, highlights “. . . the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”




                                                    8
